No. 41P17-7

SEVEN-B DISTRICT

Supreme Court of J^ortf) Carolina
ARTHUR O. ARMSTRONG
v
STATE OF NORTH CAROLINA, ET AL.
„
From Wilson
( 03CVS00105 03CVS00401 03CVS01939 03CVS04584 )

Q.RPER
The following order has been entered on the motion filed on the 11th of December 2020 by Plaintiff for Relief:
"Motion Dismissed by order of the Court in conference, this the 10th of March 2021
si Berger, J.
For the Court
Upon consideration of the petition filed by Plaintiff on the 14th of December 2020 in this matter for a writ of
certiorari to review the order of the Superior Court, Wilson County, the following order was entered and is hereby
certified to the Superior Court of that County:
"Dismissed by order of the Court in conference, this the 10th of March 2021."
s/ Berger, J.
For the Court
Upon consideration of the petition filed by Plaintiff on the 22nd of December 2020 in this matter for a writ of
certiorari, the following order was entered and is hereby certified to the North Carolina Court of Appeals:
"Dismissed by order of the Court in conference, this the 10th of March 2021."
si Berger, J.
For the Court
The following order has been entered on the motion filed on the 15th of January 2021 by Plaintiff for Relief Gross Negligence:
"Motion Dismissed by order of the Court in conference, this the 10th of March 2021."
s/ Berger, J.
For the Court
The following order has been entered on the motion filed on the 15th of January 2021 by Plaintiff for Relief Conspiracy Complaint:

